WAIVER

SUPREME COURT OF THE UNITED STATES

19-141

Supreme Court Case No.

y, Indiana

(Petitioner) (Respondent)

Jeffrey Fairbanks

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
{J Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signature

— Stipnen B. Cheasem
Date: aguct 20, 2019

Stephen R. Creason
MMr OMs. Mrs. Miss
Office of the Attorney General

 

 

(Type or print) Name

Firm
Address_Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
317-232-6222

Phone

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Alexandra Crisanthi Siskopoulos
Siskopoulos Law Firm, LLP 33 West 19th Street, 4th Floor
New York, NY 10011
